HHS/OIG, Audit - "Review of New Jersey Family Planning Claims for the Period July 1, 1997, Through March
31, 2002," (A-02-05-01016)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of New Jersey Family Planning Claims for the Period July 1, 1997, Through March
31, 2002," (A-02-05-01016)
May 16, 2008
Complete
Text of Report is available in PDF format (586 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
New Jersey did not provide support for $10.9 million ($4.3
million Federal share) of the $13.1 million that it claimed for Medicaid family
planning services from July 1, 1997, through March 31, 2002.  Medicaid
reimburses the States family planning services at an enhanced 90-percent rate.
Because we were unable to determine the appropriateness of these claims, we have
set aside these costs for resolution by the Centers for Medicare & Medicaid
Services (CMS).  Of the $2.2 million in documented claims, the State included
$786,000 ($314,000 Federal share) in unallowable costs related to infertility
services.  The remaining claims were submitted in compliance with Federal and
State requirements.  State officials indicated that they had relied on a
consultant to prepare the retroactive family planning claims and that, contrary
to Federal requirements, they had not ensured the veracity of those claims.
We recommended that the State:  (1) work with CMS to resolve the $4.3 million in
set-aside costs, (2) refund $314,000 to the Federal Government,
(3) adhere to Federal and State requirements when submitting family planning
claims for Federal reimbursement, and (4) review all
work performed by consultants to ensure the veracity of future Medicaid claims
to the Federal Government.  The State agreed with our recommendations.